No.
In the Supreme Court of the Anited States

pi
BILLIE RENE FRANCES LILLIAN POWERS,
Petitioner,

v.
THE BANK OF NEW YORK MELLON, FKA Bank
of New York, as Trustee, on behalf of the holders of
the alternative Loan Trust 2007-HY9 Mortgage
Pass Through Certificates Series 2007-HY9, et al.,
Respondents

DECLARATION OF SERVICE

Wendy Alison Nora declares under penalty of
perjury of the laws of the United States of America
pursuant to 28 U.S.C. § 1746 that she caused three
(8) true and correct copies of each of the following
documents on counsel for the Respondents at their
addresses of record in the proceedings below:

1. The Petition for Writ of Certiorari to the Ninth
Circuit Court of Appeals with appended Request for
Judicial Notice;

2. The Certification of Compliance with Word Count
Limitations; and .

3. This Declaration of Service
2

by instructing the delivery of the same via UPS at
Madison Wisconsin on December 19, 2020 to each of
the following:

KUTAK ROCK LLP

Attorneys for the “SPS Respondents”
Steven M. Dailey

Rebecca L. Wilson

5 Park Plaza, Suite 1500

Irvine, California 92614-8595

SEVERSON & WERSON, APC

Attorneys for the “Bank of America Respondents”
Kerry W. Franich/Robert James Gandy/

Jan T. Chilton

19100 Von Karman Avenue, Suite 700

Irvine, California 92612

SINCLAIR BRAUN LLP

Attorneys for Commonwealth Land Title Company
Kevin S. Sinclair

16501 Ventura Boulevard, Suite 400

Encino, California 91436

i

I

Ui

I
3
Dated this 18th day of December, 2020.

AN IMAGE OF THE SIGNATURE BELOW
SHALL HAVE THE SAME FORCE AND EFFECT AS
THE ORIGINAL

U . <

Wendy Alison Nora
Attorney for Petitioner
ACCESS LEGAL SERVICES, LLC
810 Fourth Ave. South, Suite 5010
Minneapolis, Minnesota 55415
VOICE: (612) 333-4144/FAX: (612) 206-3170
Email: accesslegalservices@gmail.com
